      SECURITY CLEARANCE INVESTIGATIVE PRIORITIES


Report No. D-2000-111                   April 5, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ANACI                 Access National Agency Check with Written Inquiries
CCMS                  Case Control Management System
DSS                   Defense Security Service
ENTNAC                Entrance National Agency Check
NACIC                 National Agency Check with Written Inquiries
NACLC                 National Agency Check with Local Agency Checks and Credit
                        Check
                       Office of the Inspector General, DoD
Report No. D-2000-111                                                      April 5, 2000
  (Project No. 9AD-0046.03)

                  Security Clearance Investigative Priorities

                                Executive Summary

Introduction. This report is the second in a series of audit reports addressing security
clearance and access issues.

Objectives. During our audit to determine the status of actions taken within DoD
relating to access reciprocity between special access programs, we identified problems
with obtaining security clearances that affected the execution of special access programs
and other DoD operations. This report addresses the overall issue of whether security
clearances were being obtained and updated for personnel in the most critical and high-
risk positions. We addressed the impact of obtaining background investigations for
security clearances on three special access programs in Inspector General, DoD Report
No. D-2000-072, “Expediting Security Clearance Background Investigations for Three
Special Access Programs” (U), January 31, 2000 (SECRET). Future audit reports will
cover the mechanisms for tracking the status of requested clearances, the adjudication
processes, the impact of security clearance issues on special access programs, access
reciprocity, and the acquisition of the Case Control Management System.

Results. There is no DoD-wide system to prioritize security clearance requirements.
As a result, there is no assurance that personnel in mission-critical and high-risk
positions will receive timely security clearances, as the DoD has been unable to prevent
major delays in the investigative process. Without standards for assessing risk and
focusing resources, mission-critical programs will be operationally impacted and
subjected to a higher risk of compromise. For details of the audit results, see the
Finding section of this report.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) establish an
Integrated Process Team to develop criteria for determining the highest priority
mission-critical and high-risk positions and develop a process for relating individual
clearance requests to those mission-critical and high-risk positions. We recommend
that the Director, Defense Security Service, establish the process and metrics to ensure
expeditious processing of personnel security clearance investigations in accordance with
the priorities established.

Management Comments. The Office of the Assistant Secretary of Defense
(Command, Control, Communication, and Intelligence) nonconcurred with the
recommendation to prioritize mission-critical and high-risk positions, stating
prioritization is beyond its ability to implement, especially in the near future. In
addition, it stated that implementation of several recent initiatives would decrease the
workload of the Defense Security Service, allowing it to more expeditiously complete
investigations. The Defense Security Service supported the intent of the
recommendation for DoD to prioritize security clearance requests. The Army
disagreed with the recommendation to prioritize, stating the Deputy Secretary of
Defense’s Personnel Security Overarching Integrated Process Team recommendation to
transfer all Secret/Confidential clearance investigations to the Office of Personnel
Management would eliminate the backlog and restore timeliness within 2 years. The
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
and the Defense Security Service concurred with the recommendation for processes and
metrics to ensure that security investigations are based on whatever priorities are
established, although the Assistant Secretary’s concurrence extended only to
investigative priorities already established and the Defense Security Service
Performance Contract. A discussion of the management comments is in the finding
section of the report and the complete text is in the Management Comments section.

Audit Response. The Director, Defense Security Service, comments were generally
responsive. The Assistant Secretary of Defense (Command, Control, Communications,
and Intelligence) and Army comments were not. The DoD has taken various measures
to improve the responsiveness and efficiency of the personnel clearance investigative
process, but much more needs to be done. The volume of clearance requests
necessitates having a viable prioritization program, extended well beyond existing
guidelines, even if dramatic productivity increases are achieved in the investigative
process. Strong managerial leadership can meet this challenge. We request that the
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
reconsider his position and provide comments on the final report by June 2, 2000.




                                           ii
Table of Contents

Executive Summary                                                         i


Introduction
     Background                                                           1
     Objectives                                                           3

Findings
     Prioritization of Security Clearance Investigations                 4

Appendixes
     A. Audit Process
           Scope                                                         17
           Methodology                                                   18
     B. Prior Coverage                                                   19
     C. Definitions                                                      20
     D. Investigation Requirements                                       22
     E. Average Days to Open a Case In December 1999                     23
     F. Cases Pending at DSS                                             25
     G. Cases Loaded By DSS                                              26
     H. Cases Opened By DSS                                              28
     I. Cases Closed By DSS                                              30
     J. Report Distribution                                              32

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                 35
     Defense Security Service                                            39
     Department of the Army                                              41
Background
    This report is the second in a series and discusses security clearances for
    personnel in mission-critical and high-risk positions requiring access to
    classified information. The first report discussed the impact of security
    clearances on three special access programs. The third report will address
    tracking personnel security requests. Subsequent reports will address the
    adjudication processes, the impact of security clearances on all special access
    programs and the status of access reciprocity, and the acquisition of the Case
    Control Management System.

    Security Clearances. Personnel security clearance investigations are intended
    to establish and maintain a reasonable threshold for trustworthiness through
    investigation and adjudication before granting and maintaining access to
    classified information. The initial investigation provides assurance that a person
    has not demonstrated behavior that could be a security concern. Reinvestigation
    is an important, formal check to help uncover changes in behavior that occurred
    after the initial clearance was granted. The standard for reinvestigation is
    5 years for Top Secret, 10 years for Secret, and 15 years for Confidential
    clearances. Reinvestigations are even more important than the initial clearance
    investigation, because people who have held clearances longer are more likely to
    be working with more critical information and systems.

    Clearance Requirements. On March 24, 1997, the President approved the
    uniform Adjudicative Guidelines, and Temporary Eligibility Standards and
    Investigative Standards, as required by Executive Order 12968, “Access to
    Classified Information.” The investigative standards dictate that the initial
    investigation and reinvestigation for access to Top Secret and Sensitive
    Compartmented Information are the single-scope background investigation and
    the single-scope background investigation periodic reinvestigation, respectively.
    The investigative standards for access to Top Secret and Sensitive
    Compartmented Information were implemented by the Office of the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    on July 1, 1996.

    The investigation and reinvestigation for access to Secret and Confidential
    information consists of a national agency check with local agency checks and a
    credit check (NACLC). A November 10, 1998, memorandum from the Office
    of the Assistant Secretary of Defense (Command, Control, Communications,
    and Intelligence) established that, effective January 1, 1999, the Defense
    Security Service (DSS) would begin implementing the NACLC for Secret and
    Confidential access; however, the national agency check with written inquiries
    and credit check (NACIC) or the access NACIC (ANACI), used by the Office
    of Personnel Management, will continue to serve as the basis for Secret and
    Confidential clearances for DoD civilian employees. The “Report of the Joint
    Security Commission II,” August 24, 1999, stated that DoD Secret clearances
    were based on national agency checks alone, without the credit checks and the
    local agency checks required by the standards. Based on the Office of the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) memorandum and the Joint Security Commission II report, DSS
                                         1
was not following the 2-year old investigative standards for Secret and
Confidential access until January 1, 1999. Appendix C shows the definition of
the various investigations and Appendix D shows the investigation steps for each
type of investigation.

DoD Security Clearances. The process of obtaining a security clearance begins
with a request from a military commander, contractor, or other DoD official for
a security clearance for an individual because of the sensitive nature of his or
her duties. The individual then completes a security questionnaire that is
forwarded to the DSS Operations Center-Baltimore, in Linthicum, Maryland.
The Center’s case analysts review clearance requests to ensure that all necessary
forms are complete, develop a scope for the investigation, and assign the
required work to the 12 DSS operating locations throughout the United States.
An investigation may be sent to one or more operating locations depending on
where the individual seeking the clearance lived, worked, or attended school.
Once received in the field, an investigation is assigned to an investigator who
seeks information in that geographic location about the subject’s loyalty,
character, reliability, trustworthiness, honesty, and financial responsibility. The
investigation must be expanded to clarify and resolve any information that raises
questions about the subject’s suitability to hold a position of trust. As
investigative elements are completed, the field sends reports to the DSS
Operations Center-Baltimore, where case analysts determine if all investigative
criteria have been met and all relevant issues have been resolved. The case
analysts also request information from other federal agencies, such as the Office
of Personnel Management, the Federal Bureau of Investigation, the Central
Intelligence Agency, and the Immigration and Naturalization Service. DSS
sends the completed investigation to the appropriate adjudication facility, which
decides whether to grant or deny a clearance.

Defense Security Service. DSS has three missions: personnel security
investigations, industrial security, and security education and training. The
personnel security investigations mission is to conduct background investigations
on individuals assigned to, or affiliated with, DoD. Military and civilian
personnel security investigations are processed at the Operations Center-
Baltimore. Industrial or contractor security clearances are processed at the
Operations Center-Columbus.

Timeliness Problems. The General Accounting Office Report, “DoD
Personnel: Inadequate Personnel Security Investigations Pose National Security
Risks,” October 27, 1999, highlighted the inability of the Defense Security
Service to meet mission requirements, resulting in significant backlogs of
investigations and clearance requests.

The extended period of time needed to complete personnel security clearance
investigations has been a periodic concern to DoD. In April 1982, the Defense
Audit Service, our predecessor organization, issued Report No. 82-084,
“Management Survey of the Defense Investigative Service,” reporting a similar
situation, albeit not as severe, as exists today. At that time, the Defense Audit
Service reported that case completion was averaging 179 days against a Defense
Investigative Service (predecessor organization to DSS) standard of 65 days. In
addition, the General Accounting Office, in its September 15, 1981, report,
                                     2
     “Faster Processing of DoD Personnel Security Clearances Could Avoid Millions
     in Losses,” estimated productivity losses of DoD and its contractors in FY 1982
     could have been as much as $920 million.

Objectives
     During our audit to determine the status of actions taken within the Department
     of Defense relating to access reciprocity between special access programs, we
     identified problems with obtaining security clearances that affected individuals’
     access to special access programs and all DoD operations. The specific audit
     objective that this report addresses is whether security clearances were being
     obtained and updated for personnel in the most critical and high-risk positions.
     See Appendix A for a discussion of the audit scope and methodology. See
     Appendix B for a summary of prior coverage related to the audit objectives.




                                         3
            Prioritization of Security Clearance
            Investigations
            There is no comprehensive DoD-wide system to prioritize security
            clearance requirements. Without a prioritization system, there is no
            assurance that personnel in mission-critical and high-risk positions will
            receive timely security clearances. Therefore, mission-critical programs
            will be impacted and DoD may be subjected to a higher risk of
            compromise until a more efficient process is implemented.

DoD Prioritization
     DoD components did not generally prioritize requests for security clearances
     based on mission criticality. Although DSS gave priority to certain special
     projects, which have negotiated time frames for processing the security
     clearance investigations, DSS operated on a first-in, first-out basis. The only
     DoD prioritization guidance provided is a June 15, 1999, Office of the Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     memorandum. This memorandum provided a tool for prioritizing overdue
     periodic reinvestigations, which specified that reinvestigations within each
     clearance level should be submitted for processing in priority order. However,
     command security offices independently submit security clearance paperwork to
     DSS. When DSS receives security clearance paperwork from many different
     command security offices, the cases are all grouped together. As a result,
     nothing is prioritized based on mission criticality. In addition, the larger the
     number of cases pending at DSS, the less impact any individual security
     command prioritization has. Consequently, personnel in mission-critical and
     high-risk positions lack clearances while investigative resources are committed
     to less sensitive cases.

Background Investigations
     DSS processes all background investigations for military and contractor security
     clearances and the background investigations for civilian Top Secret initial and
     periodic investigations and Secret and Confidential periodic reinvestigations.
     The Office of Personnel Management processes all civilian initial background
     investigations for Secret and Confidential clearances.

     Additional DSS Investigations. DSS performs investigations other than just
     initial investigations and periodic reinvestigations for Top Secret, Secret, and
     Confidential clearances. Other investigations include special investigative
     inquiries, a trustworthiness NACLC, and spouse national agency checks. In
     addition, DSS performs entrance national agency checks (ENTNAC) for each
     enlisted member of the Armed Forces at the time of initial entry into the
     service. See Appendix C for the definitions of these investigations. Of the total
     cases loaded into the Case Control Management System (CCMS) during


                                         4
FY 1999, 47 percent were Top Secret, Secret, or Confidential initial
investigations and periodic reinvestigations, 8 percent were other investigations,
and 45 percent were ENTNACs.

Case Control Management System. The CCMS was supposed to expedite
case processing at DSS by linking all relevant information critical to a
background investigation through a series of subsystems. These subsystems
include:

       •   the Electronic Personnel Security Questionnaire, which electronically
           collects the personnel security data to initiate and conduct an
           investigation;

       •   the Field Information Management System, which generates field
           investigative reports that are then fed into the system;

       •   the Files Automation Scanning System, which converts paper
           personnel security questionnaires and attachments into electronic
           form for storage and retrieval;

       •   the Defense Clearance and Investigations Index, which integrates the
           system’s applications with the central index of all DoD personnel
           security investigations and clearances; and

       •   the Industrial Security System, which is a separate application that
           shares information in the corporate database.

The CCMS has not operated as intended. Instead of expediting the transmission
of requests for investigations and reports to and from DSS field offices, system
problems have caused serious delays in information processing and resulted in a
dramatic drop in the number of case openings and field investigations.

DSS Processing Time. When an electronic personnel security questionnaire is
received by DSS it has to be loaded in to the CCMS. Once the questionnaire is
reviewed and investigative leads are identified; the case is opened in the CCMS,
the required work is assigned to the field-operating locations, and the case is
opened in the Defense Clearance and Investigations Index. When the
investigation is complete, the case is closed in CCMS and a Report for
Adjudication is printed and sent to the appropriate adjudication facility. As of
December 1999, it took an average of 50 days for a case to be opened in CCMS
and 20 days for a Report for Adjudication to be printed. Therefore, on average,
70 days were added onto every investigation that DSS processed. However,
security clearances averaged 84 days to open, which would mean 104 days were
added to every security clearance investigation in December 1999. The average
days to open security clearance increased to 109 days in February 2000. See
Appendix E for the Average Days to Open.




                                     5
Cases Closed During FY 1999
           In December 1999, DSS estimated that it processed about 1,400 cases per day.
           However, data from CCMS showed that DSS closed about 1,200 cases per day
           during the last half of FY 1999 and about 1,100 cases per day during the first
           quarter of FY 2000. However, these numbers include the ENTNAC cases that
           skew the data. An ENTNAC is a personnel security investigation conducted in
           the same manner as the national agency check except that there is not a technical
           fingerprint search of Federal Bureau of Investigation files. It is a name check
           only and does not have a lot of impact on the workload because computerized
           technology processes it. In addition, the Military Entrance Processing
           Command sends most of the ENTNAC cases on tape, already automated for
           quick processing. If the ENTNACs are removed from the statistics, DSS
           processed 452 investigative cases per day (358 of the cases were for clearances)
           during the last half of FY 1999 and about 528 investigative cases per day
           (457 of the cases were for clearances) during the first quarter of FY 2000.

           The problems with CCMS have caused the number of cases being processed and
           closed to be reduced, consequently the number of cases that are in process
           (pending) at DSS is increasing monthly. As of December 31, 1999, there were
           350,564 cases pending at DSS. This number is more than double the
           151,806 cases pending as of June 30, 1999, and quadruple the 85,2101 cases
           pending as of December 31, 1998. See Appendix F for the number of cases
           pending and how the number has consistently grown since December 31, 1998.
           Appendices G, H, and I show the number of cases loaded, opened, and closed,
           respectively.

Avenues to Increase Cases Closed
           To process security clearance investigations more timely, DSS planned to make
           improvements to CCMS, issue augmentation contracts, and send investigations
           to the Office of Personnel Management.

           Improvements to CCMS. Improvements to CCMS are needed to make the
           system run efficiently. An Air Force Red Team (a team formed to review
           CCMS) analyzed CCMS to identify the problem areas and determine the fixes.
           The Air Force Red Team transitioned into the Program Management Office on
           September 1, 1999, and is working on identifying and prioritizing the fixes to
           the problems. The Program Management Office stated that the key factors in
           fixing the CCMS are developing configuration management so changes can be
           tracked and the Program Management Office will know what the system is, and


1
    The December 1998 cases pending do not compare directly to the December 1999 cases pending. DSS
    had approximately 40,000 paper personnel security questionnaires on hand in December 1998 that are
    not included in the pending cases. In addition, the pending cases were calculated on the cases opened
    until April 1999 when they changed the calculation to cases loaded. Therefore, the December 1998
    pending cases wouldn’t include those cases loaded in CCMS, but not opened.

                                                     6
           obtaining a test system so any changes can be tested prior to being implemented
           on the system. However, increased productivity is not going to happen right
           away.

           Augmentation Contracts. DSS is outsourcing some of the initial and periodic
           reinvestigations for Top Secret, Secret, and Confidential clearances. DSS
           issued two contracts to have contractors perform a total of 39,000 investigations
           per year in FY 2000 and FY 2001.

           Office of Personnel Management. DSS contracted with the Office of
           Personnel Management to complete 43,000 civilian investigations for FY 2000
           and 71,000 civilian investigations for FY 2001.

Investigations Required in FY 2000 and FY 2001
           Program Budget Decision 434, “Defense Security Service,” December 1, 1999,
           states the average throughput DSS expects from CCMS in FY 2000 is
           2,300 cases per day and DSS based its FY 2000 budget request on processing
           2,300 security clearance investigations per day. DSS is in the process of
           identifying and correcting problems with CCMS, but in December 1999, the
           DSS Program Management Office estimated that it could take 18-24 months to
           correct all problems and have CCMS running efficiently. Therefore, the
           number of cases that remain in process at DSS will continue to grow until
           CCMS can efficiently process cases and the Services, Defense agencies, and
           contractors will continue to receive security clearances in an untimely manner.
           Given the problems in CCMS, it would be more realistic to compute the
           potential cases to be completed by DSS and their contractors at 1,500 cases per
           day for FY 2000 and 2,000 cases per day for FY 2001.2 See Table 1 for the
           FY 2000 Investigations. DSS showed 263,500 cases pending at the end of
           FY 2001 in Program Budget Decision 434. We believe there will actually be
           625,300 cases pending at the end of FY 2001. See Table 2 for the Cases
           Pending by FY 2001.

Increase in Required Security Clearance Investigations
           The number of security clearance investigations required in the normal
           operations is going to increase because of the retirement age of the workforce, a
           change in the Navy and the Air Force recruitment requirements, and the quality
           of the background investigations.




2
    Based on actual cases closed, there is no rationale for the 2,300 cases per day estimate DSS used to
    compute its completions for FY 2000 and FY 2001. To allow for improvements to the CCMS, we have
    estimated 1,500 cases for FY 2000 and 2,000 cases for FY 2001. We believe these are optimistic
    estimates since DSS only closed 1,200 cases per day for the last half of FY 1999 and 1,100 cases for
    the first quarter of FY 2000.

                                                    7
                             Table 1. FY 2000 Investigations


                                                 PBD 434a              Auditor Calculations
Cases processed by DSS per day                      2,300                      1,500
Workdays per year                                x 251                      x 251
Cases processed by DSS per year                   577,300                    376,500
Cases processed by contractors                     39,000                     39,000
  DSS Completionsb                                616,300                    415,500
a
 Program Budget Decision 434, “Defense Security Service,” December 1, 1999
b
 This does not include any of the estimated 505,000 overdue periodic reinvestigations nor the
43,000 civilian cases that will be sent to the Office of Personnel Management.



          Table 2. Potential Cases Pending Through FY 2001

                                                                  Inspector General
      FY 2000 Cases                          DSS Estimate             Estimate
Beginning Balance 10/01/99a                      244,200               244,200
Added During FY 2000a                            634,100               634,100
   Total                                         878,300               878,300

Less Completed During FY 2000                      617,000b              415,500
   Total Pending 9/30/00                           261,300               462,800

       FY 2001 Cases
Beginning Balance 10/01/00a                       261,300                462,800
Added During FY 2001a                             664,500                664,500
   Total                                          925,800              1,127,300

Less Completed During FY 2001                     662,300                502,000c
   Total Pending 9/30/01                          263,500                625,300
a
  The Carry-in and the new orders contain ENTNAC and Auto-ENTNAC cases.
b
  DSS rounded 616,300 from Table 1 to 617,000.
c
  The estimate of 2000 cases per day for each of the 251 working days, was used for
FY 2001, which assumes the CCMS has been improved.




                                         8
     Retirement Eligibility. Inspector General, DoD, Report No. D-2000-088,
     “DoD Acquisition Workforce Reduction Trends and Impacts,” February 29,
     2000, stated that the average age and retirement eligibility of the civilian
     acquisition workforce is increasing. Projections show that DoD will lose
     another 55,000 personnel or 43 percent of the DoD acquisition civilian
     workforce, excluding new hires, by FY 2005. Assuming that other portions of
     the DoD workforce have similar demographic profiles, turnover is likely to be
     high and the number of security clearance investigations needed for new hires is
     likely to grow substantially.

     Military Recruits. An ENTNAC is conducted on each enlisted member of the
     Armed Forces at the time of the initial entry into the service. The ENTNAC is
     a computerized check on the person’s name only, so there is not a lot of impact
     on the workload. The Navy and the Air Force have decided to stop using the
     ENTNAC and start using the NACLC for the new recruits. There is more
     information on NACLC, used for Secret and Confidential clearances, and it’s
     cheaper to run a NACLC up front than to run an ENTNAC and spend the
     money training an individual, only to lose him later on when a clearance is
     required. Navy and Air Force accounted for 24,968 (18,807 and 6,161
     respectively) of the 51,229 ENTNAC cases loaded into CCMS in FY 1999 or
     49 percent. The Marine Corps is keeping the ENTNAC because it does not
     require a clearance for all personnel. The Army has not announced a decision.

     Quality of the Investigation. The General Accounting Office Report, “DoD
     Personnel: Inadequate Personnel Security Investigations Pose National Security
     Risks,” October 27, 1999, stated that a review of 530 randomly sampled Top
     Secret security clearance investigations and reinvestigations completed by DSS
     in January and February 1999 for the 4 DoD adjudication facilities that received
     most of the DSS investigations, found that 92 percent (489) did not fully meet
     federal investigative standards because the investigations were incomplete. It
     also stated that adjudication facility officials said that because of the amount of
     time it has taken to receive DSS investigative reports, they have been reluctant
     to return incomplete investigations to DSS because of further delays. The
     adjudication officials frequently made decisions to grant or deny clearances
     based on incomplete investigations because it would take too long to have DSS
     obtain the missing information. DoD agreed with the report and began action to
     implement the report recommendations. If the adjudication facilities return
     increased numbers of incomplete investigations to DSS, additional investigative
     workload may result.

Required Security Clearance Investigations
     DoD will require 2 million investigations, 1.3 million of which are for security
     clearances, by the end of FY 2001. The total 2 million investigations (DSS
     workload) are comprised of initial and periodic reinvestigations for Top Secret,
     Secret, and Confidential security clearances, the additional investigations that
     DSS performs, such as special investigative inquiries, and the ENTNACs. The
     number of investigations includes the cases pending at the end of FY 1999; the
     estimated new orders for FY 2000 and FY 2001, which do not include the

                                          9
    43,000 FY 2000 and 71,000 FY 2001 civilian cases to be sent to the Office of
    Personnel Management; and the overdue periodic reinvestigations.

            Table 3. Total DSS Requirements for FY 2000 and FY 2001

                                       Workloada           Investigationsb        Clearancesc
     Cases pending at the
      end of FY 1999                     244,200d              192,115e                169,400f
     FY 2000 new orders                  634,100g              348,755h                298,027i
     FY 2001 new orders                  664,500g              365,475h                312,315i
     Overdue periodic                    505,786j              505,786j                505,786j
      reinvestigations
        Total Cases                    2,048,586k           1,412,131k              1,285,528k
     a
        Workload includes all types of investigations performed by DSS and the ENTNACs.
     b
        Investigations include all types of investigations performed by DSS.
     c
        Clearances are the initial investigations and periodic reinvestigations for Top Secret, Secret,
     and Confidential security clearances.
     d
       Program Budget Decision 434 used 244,200 cases. The DSS September 1999 monthly
     activity report showed 254,131 cases pending at the end of FY 1999.
     e
        This is the number of total investigations pending at the end of FY 1999, according to the
     DSS September 1999 monthly activity report.
     f
       This is the number of Top Secret, Secret, and Confidential investigations and reinvestigations
     pending at the end of FY 1999, according to the DSS September 1999 monthly activity report.
     g
        DSS estimate provided in Program Budget Decision 434.
     h
        Total investigations loaded into CCMS in FY 1999 were 55 percent of the total workload
     therefore, we calculated 55 percent of the new orders from column one.
     i
       Clearance investigations loaded into CCMS in FY 1999 were 47 percent of the total workload;
     therefore, we calculated 47 percent of the new orders from column one.
     j
        The number of overdue periodic reinvestigations per the Office of the Assistant Secretary of
     Defense (Command, Control, Communications, and Intelligence), as of February 25, 2000.
      k
         This does not include the 43,000 civilian clearance cases that will be sent to the Office
      of Personnel Management in FY 2000 or the 71,000 civilian clearance cases that will be
      sent in FY 2001.



Security Clearance Investigation Timeframes
    The Office of Personnel Management negotiated to conduct Top Secret initial
    investigations and Secret and Confidential periodic reinvestigation in 75 days
    and Top Secret periodic reinvestigations in 180 days. The Office of Personnel
    Management has always conducted civilian Secret and Confidential initial
    investigations.




                                               10
           CCMS, on average, adds 70 days (104 days for a clearance) to the investigation
           period for opening (50 days3, 843 days for a clearance) and printing (20 days)
           the case processed by DSS. The CCMS December 31, 1999, monthly activity
           report average days for closing a case by type are shown in Table 4. These
           numbers vary from month to month and are larger for the month when some of
           the older cases have been closed. In addition, DSS only began tracking the
           cases from the load date, when DSS becomes responsible for the case, in April
           1999.

                           Table 4. DSS Average Days to Close Cases

                    Type of Investigation         Cases Closed        Average Days
                    Top Secret-Initial                 989                257
                    Top Secret-Periodic                868                262
                    Secret-Initial                   2,720                180
                    Secret-Periodic                  1,861                137
                    Confidential-Initial               116                183
                    Confidential-Periodic               24                146


Mission-Critical Programs
           Mission-critical programs will be impacted if security clearances are provided in
           an untimely manner. While program managers are waiting for final security
           clearances for their personnel, they are allowing critical jobs to be performed by
           less than the best-qualified personnel because the security clearances for the
           most qualified personnel have not been finalized. In addition, they are allowing
           personnel in mission-critical and high-risk positions access to classified
           information without current security clearances.

Prioritization Based on Security Questionnaire
           The Operations Research Office, DSS, has worked with MITRE Corporation to
           develop an algorithm to prioritize the periodic reinvestigations to more rapidly
           process the risky cases. Together, they developed a risk prioritization algorithm
           that can be applied to the electronic personnel security questionnaire responses
           to sort out or capture potential revocation cases. A subset of the electronic
           personnel security questionnaire issues were shown to occur with statistically
           different frequencies among revocation cases versus the general population.
           They believe the algorithm can capture about 80 percent of latent revocations,
           by investigating only 5 percent of the electronic personnel security

3
    In February 2000 the average days to open a case was 69 days and the average days to open a security
    clearance was 109 days. (See Appendix E)

                                                    11
    questionnaires. The algorithm can be installed in the electronic personnel
    security questionnaire gateway to the CCMS so that each questionnaire can be
    reviewed before it is loaded into the CCMS. However, this would not address
    the 350,564 cases pending in the system as of December 31, 1999, and the
    additional cases added since then. In addition, the algorithm does not allow for
    the mission criticality and risk of the position.

Personnel Security Overarching Integrated Process Team
    On November 30, 1999, the Deputy Secretary of Defense established the
    Personnel Security Overarching Integrated Process Team. The Overarching
    Integrated Process Team had until January 20, 2000, to “Pioneer a different
    path to solve the crisis of the continuing personnel security investigations
    backlog, and sell it.” The Team recommended outsourcing all
    Secret/Confidential Investigations, except those with overseas leads, to the
    Office of Personnel Management to allow DSS to focus on the Top
    Secret/Sensitive Compartmented Information investigations. Personnel from the
    Inspector General, DoD, participated in the Overarching Integrated Process
    Team. When the Overarching Integrated Process Team briefed the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    on January 14, 2000, the Inspector General, DoD, representative raised the
    issue of prioritization. He stated that in order to achieve a more efficient
    process, the cases needed to be prioritized according to mission criticality and
    risk. There was no disagreement from the members of the Overarching
    Integrated Process Team; however, the issue of prioritization was not addressed
    when the Deputy Secretary of Defense was briefed on January 20, 2000.

Conclusion
    The tremendous number of security clearance investigations pending at DSS and
    required to be processed in the future increases the risk that critical cases will
    not be expeditiously processed. The algorithm developed by DSS can help to
    identify those individuals who are high-risk for revocation or denial of a security
    clearance, but DSS cannot determine mission criticality or the risk associated
    with the position held by individuals. Currently, the only prioritization for the
    position is at the individual command’s security office, which is erased by the
    volume of requests at DSS. Although DoD efforts to improve DSS efficiency
    and to outsource part of the workload are commendable, more needs to be done.
    The Department needs to initiate a business re-engineering effort that results in a
    comprehensive DoD-wide system to prioritize security clearance requirements.
    Once the system is in place, DSS should establish the process and metrics for
    expeditiously processing security clearance investigations for personnel in the
    prioritized positions.




                                        12
Management Comments on the Finding and Audit Response
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) Comments on the Finding. The Director of Security, Office of
    the Assistant Secretary of Defense (Command, Control, Communication, and
    Intelligence), stated that the draft report was extremely comprehensive and
    factual with regard to the DSS investigative backlog and processing issues
    confronting DoD customers as a result of problems with CCMS. However, he
    stated that while DSS does process most cases on a first-in, first-out basis, it
    does prioritize many kinds of investigations, such as Project Blowtorch
    (personnel assigned to NSA [National Security Agency]) and Yankee White
    (White House cases). These priorities are based on mission-critical functions
    and are requested and justified by the cognizant authority requesting the
    investigation. He further states that other priority investigations associated with
    mission-critical functions may be suffering, but there is no practical way to
    prioritize all the cases other than to have the local security manager identify the
    cases. In addition, the number of priority investigations resulting would be
    huge, ensuring there would be no prioritization at all. The Director of Security
    also stated the algorithm developed by DSS, which attempts to categorize cases
    on the likelihood that they would result in an adverse adjudicative outcome,
    would not determine relative priorities, which is the proper and sole purview of
    the component requesting and paying for the investigation.

    Audit Response. We agree that DSS negotiated time frames for processing
    security clearance investigations for special projects, such as Yankee White.
    During FY 1999 there were 6,647 cases closed and 8,510 cases pending for the
    special projects. The prioritization of 15,157 special project cases in FY 1999
    does not begin to deal with the 225,168 security clearance cases loaded into the
    CCMS in FY 1999. There is no prioritization for the 236,062 clearance
    investigations pending at DSS as of December 31, 1999. Since only
    75,346 clearance investigations were closed in FY 1999, we believe most of the
    cases pending as of December 31, 1999, will require more than one year to
    complete. As far as the DSS algorithm is concerned, we view it as a tool to
    supplement a prioritization system. Since the number of priority cases could
    potentially be large, being able to identify those cases that the DSS algorithm
    determined more likely to result in adverse adjudicative decisions would be
    beneficial.

Recommendations, Management Comments, and Audit
  Response
    Revised and Renumber Recommendations. Based on management’s
    comments, we revised draft Recommendation 1.b. to recognize the prioritization
    system would not be developed and implemented immediately; however, it
    should be applied to the workload that exists at the time of system completion.
    We also combined draft Recommendation 1.c. with Recommendation 1.b.



                                        13
1. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) establish an Integrated Process
Team to:

           a. Develop criteria to determine the highest priority mission-
              critical and high-risk positions based on their impact on
              mission-critical programs. The criteria must also include a
              review of the special projects at the Defense Security Service.

           b. Develop a process for relating specific clearance requests to
              mission-critical and high-risk positions. This process must
              identify specific individuals as they are submitted for initial
              investigations and periodic reinvestigations. The process
              should continually adjust the highest priority mission-critical
              and high-risk positions to actions that may impact them.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director of Security, Office of the Assistant
Secretary of Defense (Command, Control, Communication, and Intelligence),
nonconcurred, stating that the recommendations are beyond the scope and ability
of the Assistant Secretary of Defense (Command, Control, Communication, and
Intelligence) to implement, especially in the near future. Implementation of
several initiatives: two contracts for 37,000 investigations, the Office of
Personnel Management performing civilian investigations (43,000 in FY 2000
and 71,000 in FY 2001), a DSS initiative to engage additional outside vendors
to conduct investigations, and moving all NACLC investigations to the Office of
Personnel Management will reduce DSS workload, permitting it to more
expeditiously open and complete the more critical Top Secret/Sensitive
Compartmented Information periodic reinvestigations. The Director of Security
also stated that priorities for submission of investigations already exist in DoD
and it would be extremely difficult to develop a priority listing across all
components. Such an attempt would likely result in everything becoming a high
priority since no component would voluntarily concede that one of its programs
is less important than another component’s. In addition, the Director of
Security stated that the electronic personnel security questionnaires would have
to be analyzed and prioritized, which would cause delays and additional costs.
The cost would impose a significant additional burden on the Components,
which are being asked to identify an additional $205 million to fund the
elimination of the periodic reinvestigation backlog. If a prioritization method
were feasible, the Director stated that it should be developed by DSS customers.

Audit Response. The Assistant Secretary of Defense (Command, Control,
Communication, and Intelligence) comments are not responsive. We commend
the Assistant Secretary of Defense (Command, Control, Communication, and
Intelligence) and DSS for the initiatives underway to reduce the backlog and
excessive number of pending clearances. This report acknowledges the efforts
underway relating to the letter contracts and the civilian investigations being
performed by the Office of Personnel Management. We agree that prioritization
will be difficult; however, we believe that a rigorous business process
re-engineering effort would have positive results. The large number of

                                   14
investigative cases pending and additional requests for initial investigations and
periodic reinvestigations underscore the necessity for DoD to have a systematic
process that prioritizes mission-critical and high-risk positions.

We agree that making determinations between one program and another will be
difficult, but it is done when developing war plans and budgets. Prioritization
systems exist within other areas of DoD such as the Uniform Material
Movement and Issue Priority System that is used for the supply system.
Unrealistic or improper use of priority codes can be minimized by appropriate
management controls and strong leadership.

We recommend a team problem solving approach on this matter because we
share the view of the Director of Security that neither his office nor DSS can
unilaterally devise and operate a prioritization process. However, strong
leadership from the Assistant Secretary of Defense level will be vital.

We request that the Assistant Secretary of Defense (Command, Control,
Communication, and Intelligence) reconsider his position and provide additional
comments in response to the final report.

Defense Security Service Comments. The Defense Security Service concurred
with the intent of the recommendation, but did not agree with the approach of
the recommendation. The Defense Security Service suggested that a central
requirements facility be established by each DoD activity that has a central
adjudication facility. The central requirements facility should scrub, validate,
and prioritize clearance requests; review clearance requests for accuracy; review
fingerprint cards for currency; and be the office for communication on security
clearance requirement matters. The central requirements facility would reduce
costs by eliminating unnecessary requests and providing a usable clearance
package, allow the Defense Security Service to function efficiently, and result in
improved national security.

Audit Response. We do not believe that a central requirements facility is
necessarily the best solution, but we welcome the constructive suggestion. Our
recommendation would prioritize the positions and identify the security
clearance with the position. A prioritization code, identified on the clearance
request by the requesting security office, could allow the prioritization to be
implemented when cases are received by the Defense Security Service so a
central requirements facility would not be required to perform this function.

Department of the Army Comments. The Army disagreed with the
recommendation. The Army stated that the Overarching Integrated Process
Team’s recommendations will eliminate the security clearance backlog of
periodic reinvestigations and restore timeliness within 2 years. In addition, the
Army stated that special access programs and other critical positions are already
given highest priority for investigative submission and that the investigative
prioritization has already been addressed by the Overarching Integrated Process
Team through recommending research on prioritizing personnel security
investigative cases based upon both personnel history and job position risk
factors as determined by a validated algorithm.

                                    15
Audit Response. We agree that implementing the Overarching Integrated
Process Team recommendation to transfer all Secret/Confidential clearance
investigations to the Office of Personnel Management will be beneficial, but it
does not eliminate the need for DoD prioritization of mission-critical and high-
risk positions. Although the special projects that are given priority by DSS do
include some special access programs and other critical positions, most special
access programs are not included in the special projects. The DSS algorithm
can determine those cases that may potentially result in denial of the clearance,
and can factor in the risk of whether an individual has access to special access
programs, sensitive compartmented information, and classified information.
However, the sheer volume of requests pending at DSS, those that will be
received by DSS for the normal workload, and the additional requests required
for periodic reinvestigations necessitates having a DoD-wide process for
prioritizing mission-critical and high-risk positions.
2. We recommend that the Director, Defense Security Service, establish the
   process and metrics to ensure expeditious processing of personnel
   security clearance investigations in accordance with established
   priorities.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Assistant Secretary of Defense (Command,
Control, Communication, and Intelligence) generally concurred with the
recommendation.

Defense Security Service Comments. The Defense Security Service concurred
with the recommendation, stating it will work with the appropriate personnel to
ensure that the process and metrics are in place.




                                    16
Appendix A. Audit Process

Scope
    Work Performed. We evaluated the DSS plan to improve the CCMS and to
    process initial and overdue periodic reinvestigations. We reviewed DSS
    performance results for the period of October 1998 through December 1999.

    DoD-wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goals, and performance measures:

    FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineering the Department to achieve
    a 21st century infrastructure. (00-DoD-2) FY 2000 Subordinate Performance
    Goal 2.1: Recruit, retain, and develop personnel to maintain a highly skilled
    and motivated force capable of meeting tomorrow’s challenges. (00-DoD-2.1)
    FY 2000 Performance Measure 2.1.1: Enlisted Recruiting. (00-DoD-2.1.1)
    FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
    infrastructure by redesigning the Department’s support structure and pursuing
    business practice reforms. (00-DoD-2.3) FY 2000 Performance
    Measure 2.3.1: Percentage of the DoD Budget Spent on Infrastructure.
    (00-DoD-2.3.1) FY 2000 Subordinate Performance Goal 2.4: Meet combat
    forces’ needs smarter and faster, with products and services that work better and
    cost less, by improving the efficiency of DoD’s acquisition processes.
    (00-DoD-2.4)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals in the Information Technology Management Functional Area.

           • Objective: Deliver great service. Goal: Deliver new major defense
             systems to the users in 25 percent less time. (ACQ-1.1)

           • Objective: Provide services that satisfy customer information needs.
             Goal: Modernize and integrate Defense information infrastructure.
             (ITM-2.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapon System Acquisition, the Information Management and
    Technology, and the Military Personnel Management high-risk areas.

                                       17
Methodology
    To determine how many security clearance investigations DSS can process, we
    reviewed the number of cases closed for the period from October 1998 through
    December 1999. We also attended briefings and interviewed personnel to
    determine what actions DSS is taking to process security clearance
    investigations in a timely manner.

    Use of Computer-Processed Data. We relied on computer-processed data
    without performing tests of system general and application controls to confirm
    the reliability of the data. We did not establish reliability of the data because
    there is no other source of security clearance requests without going to every
    individual security office in DoD and DoD contractors. We established that
    some requests have been lost so we know CCMS is inaccurate. However,
    because of the size of the number of cases, we believe any error rate would be
    insignificant to the finding. Therefore, not establishing the reliability of the
    database will not materially affect the results of our audit.

    Audit Type, Dates, and Standards. We conducted this economy and
    efficiency audit from September 1999 through January 2000, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

    Management Control Program. We are addressing the DSS management
    control program in Inspector General, DoD, Project No. 9AD-0046.04,
    “Tracking Security Clearance Requests.”




                                        18
Appendix B. Prior Coverage

     During the last 6 years, the Inspector General, DoD, issued four reports and the
     General Accounting Office, the Joint Security Commission II, the Commission
     on Protecting and Reducing Government Secrecy, and the Joint Security
     Commission issued one report each on security clearance background
     investigations.


General Accounting Office
     United States General Accounting Office Report No. NSIAD-00-12
     (OSD Case No. 1901), “DoD Personnel, Inadequate Personnel Security
     Investigations Pose National Security Risks,” October 27, 1999.


Inspector General, DoD
     Inspector General, DoD Project No. 9AD-0046.04, “Tracking Security
     Clearance Requests,” March 31, 2000.

     Inspector General, DoD Report No. D-2000-072, “Expediting Security
     Clearance Background Investigations for Three Special Access Programs” (U),
     January 31, 2000. (SECRET)

     Inspector General, DoD Report No. 98-067, “Access Reciprocity Between DoD
     Special Access Programs” (U), February 10, 1998. (CONFIDENTIAL)

     Inspector General, DoD Report No. 97-196, “Personnel Security in the
     Department of Defense,” July 25, 1997.


Others
     Joint Security Commission II, “Report of the Joint Security Commission II,”
     August 24, 1999.

     Commission on Protecting and Reducing Government Secrecy, Senate
     Document 105-2, “Report of the Commission on Protecting and Reducing
     Government Secrecy,” March 3, 1997.

     Joint Security Commission, “Redefining Security,” February 28, 1994.




                                        19
Appendix C. Definitions
   Access National Agency Check (ANACI): A personnel security investigation
   conducted by the Office of Personnel Management for access to classified
   information, which consists of a National Agency Check, and written inquiries
   to law enforcement agencies, former employers and supervisors, references,
   schools, and credit check.

   Credit Check: Verification of the subject’s financial status, including credit
   bureau checks covering all locations where the subject has resided, been
   employed, or attended school for six months or more for the past seven years.

   Entrance National Agency Check (ENTNAC): A personnel security
   investigation scoped and conducted in the same manner as the National Agency
   Check except that a technical fingerprint search of the files of the Federal
   Bureau of Investigations is not conducted. An ENTNAC is conducted on each
   enlisted member of the Armed Forces at the time of initial entry into the
   service.

   Local Agency Checks: As a minimum, all investigations will include checks of
   law enforcement agencies having jurisdiction where the subject lived, worked,
   and/or attended school within the last 5 years, and if applicable, of the
   appropriate agency for any identified arrests.

   National Agency Check: The National Agency Check is part of all
   investigations and reinvestigations. The scope for the NAC is 5 years and at a
   minimum, it consists of a review of the following:

    1. Investigative and criminal history files of the Federal Bureau of
       Investigations, including a technical fingerprint search

    2. OPM’s Security/Suitability Investigations Index

    3. Defense Clearance and Investigations Index

    4. Such other national agencies appropriate to the individual’s background.

          a. Central Intelligence Agency

          b. Immigration and Naturalization Service

          c. State Department

          d. Military Personnel Record Center




                                      20
       e. Treasury Department

       f. Other agencies such as the National Guard Bureau

National Agency Check Plus Written Inquiries: A personnel security
investigation conducted by the Office of Personnel Management, combining a
NAC and written inquiries to law enforcement agencies, former employers and
supervisors, references and schools.

National Agency Check with Local Agency Checks and Credit Check
(NACLC): The NACLC applies to the investigations and reinvestigations
conducted to determine eligibility for access to Secret and Confidential.

Special Investigative Inquiries: A supplemental personnel security
investigation of limited scope conducted to prove or disprove relevant
allegations that have arisen concerning a person upon whom a personnel security
determination has been previously made and who, at the time of the allegation,
holds a security clearance or otherwise occupies a position that requires a
security determination.




                                  21
Appendix D. Investigation Requirements

 Investigative Requirement                                            NACLC   SSBI1   SSBI-PR2
 Completion of Forms (electronic personnel security                    X       X         X
  questionnaire and supporting documentation)
 National Agency Check                                                 X       X         X
 NAC for the Spouse or Cohabitant                                              X         X
 Date and Place of Birth                                               X       X
 Citizenship                                                                   X
 Education                                                                     X
 Employment                                                                    X         X
 References                                                                    X         X
 Former Spouse                                                                 X         X
 Neighborhoods                                                                 X         X
 Financial Review (Credit Check)                                       X       X         X
 Local Agency Checks                                                   X       X         X
 Public Records                                                                X         X
 Subject Interview                                                             X         X
 Polygraph                                                                     X

 1
     Single-Scope Background Investigation
 2
     Single-Scope Background Investigation Periodic Reinvestigation




                                                   22
Appendix E. Average Days To Open a Case
                                     December 1999

                                            Average        Total
                                   Cases    Days To      Days to
                                  Opened     Open          Open     Weighted Average
Case Type                           (a)       (b)        (a*b=c)    (sum c/sum a=d)
Confidential                         290         92        26,680
Confidential PR                       32       114          3,648
Secret (new)                       7,076         87      615,612
Secret PR (new)                    2,317         77      178,409
Secret PR (old)                         6      389          2,334
Top Secret (new)                   1,902         82      155,964
Top Secret PR                      2,562         84      215,208
  Clearances                      14,185               1,197,855          84

NAC                                2,543          54    137,322
NACLC for Trustworthiness              1          47         47
Other                                  6          45        270
Spouse NAC                             7          64        448
Special Investigative Inquiries      114          84      9,576
Expanded NAC                          18         155      2,790
    Other Investigations           2,689                150,453           56

Automated-ENTNAC                  10,663          2      21,326
ENTNAC                             3,212         50     160,600
  Total ENTNACs                   13,875                181,926           13

  Total Workload                  30,749               1,530,234          50




                                            23
Appendix E. Average Days To Open a Case
            (cont’d)
                                      February 2000

                                            Average      Total
                                   Cases    Days To     Days to
                                  Opened     Open        Open     Weighted Average
Case Type                           (a)       (b)      (a*b=c)    (sum c/sum a=d)
Confidential                         461       125       57,625
Confidential PR                       49       133        6,517
Secret (new)                      10,915       116    1,266,140
Secret PR (new)                    4,172         99     413,028
Secret PR (old)                         4      443        1,772
Top Secret (new)                   2,649         99     262,251
Top Secret PR                      3,359       106      356,054
  Clearances                      21,609              2,363,387         109

Defense Clearance &
 Investigations Index NAC              3         0           0
NAC                                 1472        88     129,536
NACLC for Trustworthiness              2       181         362
Other                                  1        75          75
Spouse NAC                             5        41         205
Special Investigative Inquiries      119       112      13,328
Expanded NAC                          17       124       2,108
    Other Investigations           1,619               145,614          90

Automated-ENTNAC                  13,138         1      13,138
ENTNAC                             1,461        64      93,504
  Total ENTNACs                   14,599               106,642           7

  Total Workload                  37,827              2,615,643         69
Appendix J. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Special Programs
  Director, Defense Logistics Studies Information Exchange
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Security
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Chief, Army Technology Management Office
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Director, Special Programs Division, Chief of Naval Operations
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Security and Special Programs Oversight, Administrative Assistant to the Secretary of the
  Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Security Service
   Inspector General, Defense Security Service
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          32
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Permanent Select Committee on Intelligence




                                                33
Assistant Secretary of Defense (Command
Control, Communications and Intelligence)
Comments
                                            Final Report
                                              Reference




                                            Revised




                                            Added,
                                            page 12




                      35
36
37
38
Defense Security Service Comments

                                    Final Report
                                      Reference




                                    Revised




                     39
40
Department of the Army Comments

                                  Final Report
                                    Reference




                                  Added,
                                  page 12




                    41
42
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

   Thomas F. Gimble
   Robert K. West
   Lois A. Therrien
   Ellen P. Neff
